           Smithsonian Institution
           Office of the Inspector General


           In Brief                                Smithsonian Institution Network
                                                   Report Number A-06-07, August 10, 2007



Why We Did This Evaluation            What We Found

Under the Federal Information         The Smithsonian Institution’s general support system, SInet, consists of routers,
Security Management Act of 2002       switches, access servers, file servers, mail servers, domain name servers, intrusion
(FISMA), the Office of the            detection systems, firewalls, and network monitoring systems.
Inspector General (OIG) conducts
an annual independent                 Management, operational, and technical controls over SInet were not adequate.
assessment of the Institution’s       Our audit noted that the Institution operates in a decentralized environment
information security system. As       where responsibility for both performing functions and enforcing IT controls has
part of that assessment, FISMA        been assigned to the same individuals. Furthermore, because responsibility for
requires a review of a subset of      administration and security of SInet has not been centralized under the Office of
information systems. This report      the Chief Information Officer (OCIO), IT security policies and procedures
covers one such system, SInet,        documented by OCIO have not been consistently implemented or followed.
and evaluates SInet management,       Specifically, we found that:
operational, and technical security
controls.                                Because of weaknesses over the administration of network accounts,
                                          management cannot ensure that unauthorized individuals do not have access
                                          to SInet or that resources residing on it are obtained through the use of
                                          legitimate accounts.
What We Recommended
                                         Vendor patches and fixes to the network operating system for known
We made 17 recommendations to             vulnerabilities need to be installed more timely to reduce the risk of successful
strengthen controls over SInet by         intrusions, sabotage, and theft or destruction of critical or sensitive data.
enforcing Institution policies,
procedures, and practices over           Management has not enforced proper separation of administrative and
network account administration,           security functions and therefore cannot ensure that individuals with high-
segregation of duties, and risk           level or sensitive access to the system will not perform unauthorized activities.
assessments.
                                         Risk assessments performed by the Institution did not adequately address the
Management generally concurred            risk and magnitude of harm that could result from unauthorized access to or
with the report’s findings and            the unauthorized use, disclosure, disruption, modification, or destruction of
recommendations, with the                 information and systems that support the operations and assets of the
exception of those relating to            Institution. Consequently, management cannot fully assess and prioritize all
weaknesses in the development of          potential threats and vulnerabilities.
the SInet risk assessment.
                                      Without adequate controls in place to enforce Institution policies, procedures,
                                      and practices over SInet, the confidentiality, availability, and integrity of
                                      Institution information systems and related data may be at greater risk than
                                      management is willing to accept.



                                      For additional information or a copy of the full report, contact the Office of
                                      the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
                                    REPORT ON
                     FISCAL YEAR 2006 INDEPENDENT AUDIT OF THE
                     SMITHSONIAN INSTITUTION’S NETWORK (SINET)




Cotton & Company LLP
Auditors · Advisors
635 Slaters Lane, 4th Floor
Alexandria, Virginia 22314
703.836.6701
www.cottoncpa.com
                                      CONTENTS

Section                                                    Page
Purpose                                                      1

Background                                                  1

Objective, Scope, and Methodology                           2

Results
   Network Account Administration Procedures are Weak       3
   Technical Controls Over SInet Need to be Strengthened    5
   Duties are Not Adequately Segregated                     6
   Warning Banners are Not Consistently Applied             7
   Session-Locking Controls are Not Implemented             8
   Password Controls are Not Enforced                       9
   Signed Rules of Behavior are Not Retained                9
   Risk Assessments Do Not Address NIST Requirements       11
   Wireless Policies and Procedures Need to be Updated     11

Summary of Management Response                             13

Office of the Inspector General Comments                   14

Appendix – Management Response                             16
Smithsonian Institution OIG                                   FY2006 FISMA Review - SINET


                                     REPORT ON
                            FISCAL YEAR 2006 AUDIT OF THE
                      SMITHSONIAN INSTITUTION’S NETWORK (SINET)

Cotton & Company LLP conducted an audit of the Smithsonian Institution’s network (SInet)
security management program and practices to determine the effectiveness of management,
operational, and technical controls over the Institution’s general support system.

PURPOSE

The E-Government Act of 2002 (Pub. L. No. 107-347), which includes Title III, the Federal
Information Security Management Act of 2002 (FISMA), was enacted to strengthen the security
of federal government information systems. Although the E-Government Act of 2002 does not
apply to the Institution, the Institution supports the information security practices required by the
Act because they are consistent with and advance the Institution’s mission and strategic goals.

FISMA outlines federal information security compliance criteria, including the requirement for an
annual independent assessment by the Institution’s Inspector General. This report covers the
evaluation of the SInet security management practices and controls and supports the Smithsonian
Institution Office of the Inspector General (OIG) annual FISMA evaluation of the information
security controls implemented by the Institution.

BACKGROUND

FISMA, Office of Management and Budget (OMB) regulations, and National Institute of
Standards and Technology (NIST) guidance outline minimum security requirements for federal
information security programs. These include:

     • Annual System Self-Assessments. NIST’s Security Self Assessment Guide for
       Information Technology Systems contains specific control objectives and techniques
       against which a system can be tested and measured. Performing a self-assessment and
       mitigating any of the weaknesses found is an effective way to determine if the system or
       the information it contains is adequately secured and protected from loss, misuse,
       unauthorized access, or modification. OMB guidelines require organizations to use the
       NIST self-assessment tool annually to evaluate each of their major systems.

     • Certification and Accreditation. NIST’s Guide for the Security Certification and
       Accreditation of Federal Information Systems states that systems should be certified and
       accredited. A certification is “a comprehensive assessment of management, operational,
       and technical security controls in an information system, made in support of security
       accreditation, to determine the extent to which the controls are implemented correctly,
       and operating as intended.” NIST guidance also discusses system accreditation, which is
       “the official management decision to authorize operation of an information system and to
       explicitly accept the risk to operations, assets, or individuals based on the implementation
       of the agreed-upon set of security controls.” Organizations should use the results of the
       certification to reassess their risks and update system security plans to provide the basis
       for making security accreditation decisions.




                                                  1
Smithsonian Institution OIG                                 FY2006 FISMA Review - SINET

    • System Security Plan. NIST’s Guide for Developing Security Plans for Information
      Technology Systems requires that all major application and general support systems be
      covered by a security plan. The plan provides an overview of the security requirements of
      a system and describes controls in place or planned for meeting those requirements.
      Additionally, the plan defines responsibilities and the expected behavior of all individuals
      accessing the system. The NIST guide also instructs that the security plan should describe
      the management, operational, and technical controls the organization has implemented to
      protect the system. Among other things, these controls include user identification and
      authentication procedures, contingency/disaster recovery planning, application software
      maintenance, data validation, and security awareness training.

OBJECTIVES, SCOPE, AND METHODOLOGY

On behalf of the OIG, Cotton & Company performed an independent audit over SInet, the
Institution’s general support system. We conducted this audit in accordance with Government
Auditing Standards, 2003 Revision, as amended, promulgated by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence that provides a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This report is intended to meet the
objectives described below and should not be used for other purposes.

SInet is composed of routers, switches, access servers, file servers, mail servers, domain names
servers, intrusion detection systems, firewalls, and network monitoring systems. This system is
located throughout the SI campus in almost every building, from large museum facilities to
animal houses at the National Zoo. The network spans 5 states, the District of Columbia, and one
foreign country (Panama).

The objectives of this independent audit were to evaluate and report on the existence and
effectiveness of management, operational and technical security controls over SInet and to
determine if required baselines had been adequately documented and implemented. We evaluated
SInet general controls as of August 31, 2006, using NIST’s Special Publication (SP) 800-53A,
“Guide for Assessing the Security Controls in Federal Information Systems,” which applies to
security controls defined in NIST SP 800-53, “Recommended Security Controls for Federal
Information Systems.” We tested NIST SP 800-53 general controls through interviews,
observation, and specific testing procedures where applicable.

In addition we completed detailed audit procedures for SInet technical controls securing the
Institution’s border firewall, routers, and use of wireless technologies. Our detailed audit
procedures for SInet technical controls included carrying out:

      •   External and internal penetration testing procedures
      •   External and internal vulnerability assessment procedures
      •   Wireless review to determine where the Institution was using wireless and whether
          wireless access points were adequately secured.




                                                2
Smithsonian Institution OIG                                    FY2006 FISMA Review - SINET

RESULTS

Management, operational, and technical controls over the Institution’s general support system
were not adequate. Our audit of the Institution’s general support system noted that the Institution
operates in a decentralized environment where responsibility for both performing functions and
enforcing IT controls has been assigned to the same individuals. Responsibility for administration
and security of SInet has not been centralized under the Office of the Chief Information Officer
(OCIO) and, as a result, IT security policies and procedures documented by OCIO have not been
consistently implemented or followed. Without adequate controls in place to enforce Institution
policies, procedures, and practices over SInet the confidentiality, availability, and integrity of
Institution systems and related data may be at greater risk than management is willing to accept.
Specific control weaknesses are detailed below.

Network Account Administration Procedures are Weak

Controls over the administration of SInet accounts are not adequate. Responsibility for adding,
deleting, and maintaining SInet accounts has been assigned to various administrators across the
Institution, and system administrators are not managing SInet accounts in accordance with
Institution or NIST policy. The decentralized administration of SInet contributes to accounts
being maintained in an inconsistent manner. In addition, because OCIO does not centrally
administer accounts for SInet, they were not performing any periodic reviews of active SInet
accounts to ensure these accounts are appropriate.

SInet administrators are responsible for reviewing SInet accounts and reporting results of their
reviews to the Computer Security Manager in OCIO in the Dormant Account Monthly
Compliance Report. We reviewed the reports submitted to OCIO for May and June 2006 and
noted that the reports did not include adequate information on administrators’ account reviews.

OCIO’s Technical Standard & Guideline IT-930-02 Security Controls Manual section 3.1.2 User
Account Management states:

          System administrators are responsible for reviewing accounts once every 30 days to
          identify accounts that have been inactive for 30 days. System administrators will disable
          accounts that have been inactive for 30 days. System administrators will notify the local
          manager that the account has been disabled and will be deleted after another 150 days
          (for a total of 180 days of inactivity) unless the manager requests that the account be re-
          enabled.

Our review of SInet accounts listed as active noted that:

a. Active SInet user accounts totaled 8,116, of which 2,191 (or 27 percent) have been idle in
   excess of 180 days.

      •     51 user accounts in 2006 had no activity for more than 180 days
      •     1,541 user accounts had no activity since 2005
      •     179 user accounts had no activity since 2004
      •     46 user accounts had no activity since 2003 or earlier
      •     374 user accounts show “None Found” for a last logon date




                                                   3
Smithsonian Institution OIG                                   FY2006 FISMA Review - SINET

b. Active SInet system accounts (accounts used by the Windows operating system and by
   services running under Windows) totaled 571, of which 394 (or 69 percent) have been idle in
   excess of 180 days.

      •      9 system accounts in 2006 had no activity for more than 180 days
      •     58 system accounts had no activity since 2005
      •     45 system accounts had no activity since 2004
      •     88 system accounts had no activity since 2003 or earlier
      •     194 system accounts show “None Found” for a last logon date

NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
Technology Systems, section 3.5.2 (User Administration) under User Account Management
states:

          Organizations should have a process for (1) requesting, establishing, issuing, and closing
          user accounts; (2) tracking users and their respective access authorizations; and (3)
          managing these functions.

Our audit determined that accounts are not being promptly deleted when users leave the
Institution. We selected a random sample of 45 individuals whose employment with the
Institution was terminated during fiscal year 2006 and noted that 16 of the 45 (35%) still had
active user accounts on the network.

Finally, we determined that access request forms for SInet are not adequately retained and
periodically reviewed to ensure a user’s current access is still appropriate. SInet user
Network/Email request forms are faxed to the OCIO helpdesk and kept in the Helpdesk Expert
Automation Tool (HEAT) system as a picture format. When we requested a sample of 45 user
authorization forms for review, OCIO was unable to provide the forms. We were informed that
forms are searchable only by a requester’s name or ticket number. There are no periodic reviews
conducted to trace the system permission back to authorization documents.

NIST SP 800-14 Section 3.5.2, Audit and Management Reviews, states:

          It is necessary to periodically review user account management on a system. Reviews
          should examine the levels of access each individual has, conformity with the concept of
          least privilege, whether all accounts are still active, whether management authorizations
          are up-to-date, whether required training has been completed, and so forth. These reviews
          can be conducted on at least two levels: (1) on an application-by-application basis, or (2)
          on a system wide basis.

Without adequate controls over the administration of network accounts, management has no
means of ensuring unauthorized individuals do not have access to SInet and the resources residing
on it through the use of legitimate accounts. In addition, without an up-to-date and accurate list of
authorized users on SInet with supporting access request forms, management’s ability to identify
unauthorized accounts on the network is diminished.




                                                  4
Smithsonian Institution OIG                                                         FY2006 FISMA Review - SINET

Recommendations

We recommend that the CIO:

       1. Assign responsibility to someone within OCIO for periodically reviewing all SInet
          system and user accounts to determine whether they are still necessary. For example,
          periodic reviews should detect active accounts with no activity in the last 180 days or
          accounts associated with individuals who have recently left the Institution.

       2. Develop a policy and procedures for maintaining SInet access request forms in a format
          which system or security administrators will be able to use for future reviews of network
          accounts.

       3. Centralize administration of SInet accounts for all SInet users within OCIO with the
          exception of the Office of the Inspector General.1

Technical Controls Over SInet Need to be Strengthened

Controls need to be strengthened to ensure that significant technical weaknesses do not exist on
SInet. The Institution’s Technical Note IT-930-TN14, Vulnerability Scanning of Networked
Devices, establishes procedures for performing vulnerability scanning of all devices connected to
SInet. IT-930-TN14 assigns overall responsibility for vulnerability scanning to the Computer
Security Manager and responsibility for fixing identified vulnerabilities to various individuals or
groups within the Institution.

Our audit noted that OCIO is performing scans of SInet as required by Institution policy and these
periodic scans have identified numerous weaknesses, which OCIO is in the process of addressing.
We also performed technical testing (penetration testing and vulnerability assessment) both
internally and externally on SInet. During our testing we noted that OCIO appears to have strong
controls in place for monitoring unauthorized activities on the network. On several occasions our
internal and external scans were identified by OCIO security personnel. In these instances, OCIO
cut off our access until security personnel were able to determine our activities were authorized.

Notwithstanding the controls for monitoring unauthorized activities, our internal and external
testing of SInet identified the following:

       •     273 external vulnerabilities, of which 47 were high risk and 226 were medium risk.
             Specific areas of external weakness included:

                  o     RPC service vulnerabilities
                  o     Web server configuration issues and vulnerabilities
                  o     Multiple buffer overflows

       •     178 internal vulnerabilities, of which 145 were high risk, 33 were medium risk, and no
             low risk vulnerabilities found across 443 scanned machines. Specific internal areas of
             weakness identified included:



1
    The OIG should continue to maintain administrative control over its accounts and data to ensure sensitive data obtained during the
    normal course of business is adequately protected from unauthorized disclosure or modification and to maintain statutory
    independence.
                                                                    5
Smithsonian Institution OIG                                   FY2006 FISMA Review - SINET

            o    Web server configuration issues and vulnerabilities
            o    Anonymous connections allowed to NetBios
            o    Inappropriate permissions on important registry keys
            o    Default SNMP community names and other SNMP related vulnerabilities
            o    Multiple buffer overflows

In addition, although we were initially identified and blocked by OCIO security during our
internal testing, we were eventually able to gain administrative access to machines on SInet. We
noted several specific technical weaknesses and have separately communicated them to OCIO.

Many of these weaknesses related to default configurations not being changed when systems
were installed or patches and hot fixes not being implemented in a timely manner. Best business
practices (derived from NIST, NSA, and industry studies) for securing Windows, Unix, and
Novell dictate that certain default configurations and permissions be changed to provide tighter
security over the operating system.

During our audit we noted that the Institution has not implemented standard security
configuration baselines for SInet. The implementation of baselines would in many cases address
weaknesses identified in our audit. In our FY 2006 FISMA evaluation report we recommended
that the procedures to ensure existing policies requiring the use of standard baselines are
implemented and enforced. Additionally, although the Institution does have a documented policy
on patching (Technical Note IT-930-TN08 Implementing Vendor Software Patches/Fixes), we
determined this policy is not being consistently followed or enforced.

Installation delays of vendor patches and fixes to the network operating system for known
vulnerabilities exposes the Institution’s network to an increased risk of successful hacker attacks.
It also increases the potential for network sabotage, theft of the organization’s sensitive financial
and personal data, and destruction and corruption of databases. Additionally, these unauthorized
activities can occur without detection, resulting in management’s reliance on potentially
inaccurate and incomplete financial and other information.

Recommendations

We recommend that the CIO:

    4. Enforce policies and procedures for ensuring that vendor patches and security hot-fixes
       are installed in a timely manner.

    5. Review results of our technical testing (provided during earlier meetings) to ensure
       weaknesses identified have been addressed by management or identified in OCIO scans.
       In addition, ensure critical weaknesses such as the ones identified in the SANS Top-20
       are addressed first and lower-level risk items addressed later.

Duties are Not Adequately Segregated

Controls are not adequate to ensure sensitive activities within SInet have been adequately
segregated. The SInet system security plan includes a section discussing separation of duties and
specifically states:




                                                  6
Smithsonian Institution OIG                                  FY2006 FISMA Review - SINET

        Separation of duties is a well established security methodology. Moderate and High
        impact systems have the following requirements: Applications should be designed,
        implemented and operated in a manner that supports appropriate separation of duties.
        This requirement means that the information system enforces separation of duties through
        assigned access authorizations…Examples of separation of duties include: (i) mission
        functions and distinct information system support functions are divided among different
        individuals/roles; (ii) different individuals perform information system support functions
        (e.g., system management, systems programming, quality assurance/testing,
        configuration management, and network security); and (iii) security personnel who
        administer access control functions do not administer audit functions.

We determined management has not enforced proper separation of administrative and security
functions. For example, our audit noted individuals responsible for administration of SInet user
accounts in many cases who are also responsible for the review of system audit logs. Security
best practices do not allow the same individual both to set up new users and review audit logs.
Without separation of administration and security functions, management cannot ensure
individuals with high-level or sensitive access to the system are not performing unauthorized
activities.

Recommendation

    6. We recommend that the CIO enforce separation of duty controls noted in the SInet
       system security plan and specifically segregate system administration roles from security
       roles.

Warning Banners are Not Consistently Applied

Controls are not adequate to ensure SInet warning banners include language required by the
Institution and NIST. Specifically, we determined users currently log onto SInet through
Windows 2003, Windows 2000, or Novell. Our review of warning banners for each of these
platforms noted that the associated warning banners contained different information and in some
cases did not include adequate information to meet requirements outlined in the SInet system
security plan or NIST SP 800-53.

We determined that the Windows 2000 and Novell warning banners did not agree with the
Windows 2003 warning banner. In addition, our review of Technical Standard Guideline IT-930-
02, Security Control Manual Appendix C, noted that the suggested warning banner language in
IT-930-02 did not address all information identified in NIST SP 800-53 and the SInet system
security plan. The SInet system security plan, section AC-8 System Use Notification, states:

        A System Use Notification informs potential users: (i) that the user is accessing a U.S.
        Government information system; (ii) that system usage may be monitored, recorded, and
        subject to audit; (iii) that unauthorized use of the system is prohibited and subject to
        criminal and civil penalties; and (iv) that use of the system indicates consent to
        monitoring and recording. The system use notification message provides appropriate
        privacy and security notices.

        All Smithsonian systems must display, at the minimum, the System Use Notification
        (Logon Warning Screen) shown in Appendix C. The System Use Notification must
        remain on the screen until the user takes explicit actions to log on to the information
        system.

                                                 7
Smithsonian Institution OIG                                   FY2006 FISMA Review - SINET

        For publicly accessible systems: (i) the system use information must be available as
        opposed to displaying the information before granting access; (ii) there should be no
        references to monitoring, recording, or auditing since privacy accommodations for such
        systems generally prohibit those activities; (iii) the notice given to public users of the
        information system includes a description of the authorized uses of the system.

We noted that IT-930-02 did not              Unauthorized computer access is a criminal violation of
include or make reference to:                the Computer Fraud and Abuse Act (18 U.S.C)

   The user is accessing a U.S.             System usage limitations are described in Smithsonian
    Government information system            directive SD931. All users must read and understand
   System usage may be monitored,           Smithsonian Directive 931, sign a User Agreement, and
    recorded, and subject to audit           take the online computer security awareness training
                                             annually.
   Use of the system indicates consent
    to monitoring and recording              Bypass of this banner implies understanding and
                                             acceptance of the policies in SD 931 and agreement to
Without displaying adequate warning          obtain, use or disclose sensitive data only in connection
banners, which all individuals accessing     with performance of authorized official duties.
the Institution’s general support system
are required to agree with,                  While using Smithsonian computers and networks, you
management’s ability to enforce              should have no expectation of privacy. Report any
penalties for unauthorized activities is     violation of these policies to the Smithsonian Computer
diminished.                                  Security Manager, Bruce Daniels, at (202) 633-6000 or
                                             William McGeehan at (202) 633-0632.
Recommendations

We recommend that the CIO:

    7. Update IT-930-02 to include language identified by NIST SP 800-53.

    8. Update all SInet warning banners to ensure they are consistent and address all language
       required by NIST SP 800-53.

Session-Locking Controls are Not Implemented

Controls are not adequate to ensure workstations on SInet lock after a period of inactivity.
Although we noted the Institution has developed a policy (IT-930-01 Activating Password-
Enabled Screensaver) requiring users to configure their workstations to activate a password-
protected screensaver when the computer has been idle for 10 minutes or less, we noted this
policy has not been adequately implemented by users or enforced by the Directors of each
museum, research institute, or office. Specifically, our audit identified workstations on SInet that
were not configured to activate a password-protected screensaver within the 10 minute required
time period.

Additionally, we noted that the Institution’s current mixed environment of Windows and Novell
prohibits them from effectively pushing down controls over inactivity to the user’s workstation.
Without adequate controls in place to ensure that idle workstations lock after a period of
inactivity, the risk of unauthorized individuals gaining access to an unattended workstation
increases.



                                                 8
Smithsonian Institution OIG                                 FY2006 FISMA Review - SINET

Recommendations

We recommend the CIO:

    9. Enforce Institution policy requiring activation of password-protected screensavers after a
       period of inactivity not to exceed 10 minutes. For example, OCIO should consider
       performing periodic random audits of user’s workstations to ensure they are properly
       configured.

    10. Where feasible, use Microsoft Active Directory to push screensaver controls down to
        user’s workstations.

Password Controls are Not Enforced

Controls are not adequate to ensure passwords protecting users’ SInet accounts comply with
Institution policy. Specifically, we determined users’ SInet accounts are not being consistently
configured to require users to change their password every 90 days.

The SInet system security plan section IA-5 Authenticator Management states:

        Where supported by the software, passwords expire after 90 days and cannot be reused
        for 12 generations.

The Institution has developed a policy that users are required to change their passwords every
90 days, and system administrators are to periodically review their accounts. However, out of
6,188 user accounts and 202 system-related accounts logged into during FY2006 (10/01/05
through 07/20/06), we determined:

    • 265, or 4%, of user accounts passwords had not been changed in over 90 days.
    • 62, or 31%, of system accounts passwords had not been changed in over 90 days

Through interviews we learned that no assessments are conducted to ensure that administrators
periodically review the password controls and make changes in accordance with Institution
policy.

Recommendation

    11. We recommend that the CIO enforce Institution policy by ensuring SInet implements
        strong password controls, including having passwords for all accounts change, at a
        minimum, every 90 days.

Signed Rules of Behavior are Not Retained

Controls are not adequate to ensure signed rules of behavior for all SInet users are on file.
Smithsonian Directive (SD) 931, Use of Computers and Networks, documents rules of behavior,
assignments of responsibility, and penalties for non-compliance. SD 931 states:




                                                 9
Smithsonian Institution OIG                                FY2006 FISMA Review - SINET

        The Director, Office of Human Resources, ensures that:
           • Computer security awareness training is included in orientation of new
               employees
           • Employees sign user agreements during orientation
           • Signed user agreements are retained in the official personnel files of all
               employees.

        The director of each museum, research institute, and office ensures that
           • Each user annually completes the online computer security awareness tutorial
           • Users who are not Smithsonian employees sign user agreements
           • Signed user agreements are retained in unit files.

Our testing of a random sample of 45 SInet users noted that management could not provide
signed user agreements for 22 of the 45 employees and contractors tested. Specifically, we noted:

    •   22 SInet accounts tested had signed user agreements.
    •   One current employees’ user agreement was signed, but the signature date was after the
        time of our initial testing.
    •   One current employees’ user agreement could not be provided for review.
    •   Signed user agreements for 16 contractors with access to SInet could not be provided.
    •   Five SInet user accounts tested were for employees no longer working at the
        Smithsonian. According to the Office of Human Resources, files for these employees
        were purged so no signed user agreements were available for review.

Without signed user agreements, management’s ability to hold users accountable for unauthorized
or inappropriate activities on SInet decreases. In addition, without effectively communicating
expected behaviors to SInet users, management cannot be sure users are not unknowingly
performing unauthorized or risky activities on the network.

Recommendations

We recommend that the Director, Office of Human Resources, and the CIO:

    12. Work together to determine the best way to comply with Smithsonian policy SD 931, Use
        of Computer and Networks, by retaining signed user agreements in the official personnel
        files of all employees. Signed agreements should be retained in a format that can be
        easily retrieved in the future.

We recommend that the CIO:

    13. Require existing users of SInet who do not have signed agreements on file to re-sign user
        agreements.

    14. Develop and implement procedures to ensure that the director of each museum, research
        institute, and office retains signed user agreements for non-Smithsonian personnel
        working in their units as required by SD 931.




                                               10
Smithsonian Institution OIG                                   FY2006 FISMA Review - SINET

Risk Assessments Do Not Address NIST Requirements

Controls are not adequate to ensure risk assessments performed by the Institution adequately
address the risk and magnitude of harm that could result from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems that
support the operations and assets of the Institution. While OCIO did perform a risk assessment of
SInet, this risk assessment did not address specific areas recommended by NIST SP 800-30 Risk
Management Guide for Information Technology Systems. Specifically, the SInet risk assessment,
provided by management, did not include:

    •   List of threat sources that are a risk to SInet
    •   List of the motivations or threat actions related to the threat sources
    •   List of threat sources not tied to vulnerabilities
    •   Identification of threats from system security testing results (vulnerability scans,
        penetration testing, and security testing and evaluation)
    •   Security requirements checklist
    •   Identification of the likelihood, impact, or risk for each vulnerability
    •   Risk-level matrix or a description of the risk levels

In addition, we noted the SInet risk assessment did not clearly identify a history of changes to the
risk assessment or names of individuals involved in performing the most recent risk assessment.
While NIST does not specifically require this information to be included in the risk assessment,
this information is important to ensure all changes to the environment under review have been
addressed and the right people have been included in the risk assessment process.

Without developing and maintaining a complete risk assessment, it becomes difficult for
management to assess and prioritize all potential threats and vulnerabilities.

Recommendations:

We recommend that the CIO:

    15. Revise the documented SInet risk assessment to reflect all requirements from NIST
        SP 800-30.

    16. Develop, document, and implement procedures to ensure future risk assessments address
        all areas identified in NIST SP 800-30.

Wireless Policies and Procedures Need to be Updated

Controls are not adequate to ensure unauthorized or unencrypted wireless networks are not
attached to SInet. OCIO has developed and documented a policy and procedures on the use of
wireless technologies within the Institution. Technical Note IT-930-TN25, Wireless Networks and
Mobile Devices, states:

        At this time wireless devices are specifically prohibited from connection to SInet. In
        extraordinary circumstances and where adequate controls can be demonstrated a waiver
        may be granted. The waiver must be approved by the Director Office of Information
        Technology Operations (OITO), and the Smithsonian Computer Security Manager.
        Implementation guidance will be approved as part of the waiver process. Waivers may be
        granted for more than one calendar year.
                                                 11
Smithsonian Institution OIG                                  FY2006 FISMA Review - SINET

        OCIO will monitor wireless access points and will take action to disconnect any
        unapproved devices.

        The computer security manager will use available tools to monitor Smithsonian computer
        resources.

However, our review of IT-930-TN25 noted that specific procedures have not been identified or
documented for the computer security manager to follow when monitoring Smithsonian computer
resources. The Institution’s policy does not state how monitoring will occur or how often
monitoring should occur.

Without adequate monitoring procedures in place to identify unauthorized wireless networks,
management cannot be sure individuals with access to SInet are not creating unauthorized
wireless networks. The introduction of unauthorized and in some cases unencrypted wireless
networks to an Institution’s infrastructure or general support system can greatly increase the risks
of unauthorized individuals gaining access to Institution resources. The use of wireless
technologies can lessen or eliminate the effectiveness of border security controls such as firewalls
and routers by enabling individuals outside the Institution to attach to the wireless network and
thus subvert established controls.

Recommendation

    17. We recommend that the CIO update current wireless polices and procedures to
        specifically identify how management will periodically scan for or prohibit the
        implementation of unauthorized wireless networks.




                                                12
Smithsonian Institution OIG                                   FY2006 FISMA Review - SINET

Summary of Management’s Response

The CIO’s July 27, 2007, and the OHR Director’s July 9, 2007, responses to our draft report
generally concurred with our findings and 15 of our 17 recommendations to strengthen the
management, operational, and technical controls over the Smithsonian Institution Network. The
CIO agrees with our assessment that policies and procedures for the administration and security
of SInet have not been consistently applied. The CIO contends that the only viable long-term
solution to the decentralized environment is to consolidate IT responsibilities, along with the
assignment of the needed staff to the various roles. The Institution’s migration to Active
Directory also will significantly improve OCIO’s ability to implement more stringent security
controls.

The CIO stated that remediating identified vulnerabilities and enforcing proper separation of
administrative and security functions will require additional resources not currently budgeted for
in OCIO. Moreover, management disagreed with our recommendations to ensure that the current
SInet risk assessment and future risk assessments be strengthened. OCIO believes that their risk
assessment already meets NIST requirements.

Management’s planned actions are summarized below:

Recommendation 1. Concur. OCIO will assign the responsibility for periodic review of all
SInet system and user accounts to the OCIO Customer Service and Support Division by
December 30, 2007.

Recommendation 2. Concur. OCIO agreed to develop policy and procedures for maintaining
SInet access request forms in a format which can be used for future account reviews by December
30, 2007.

Recommendation 3. Concur. OCIO will develop a policy to centralize administration of SInet
accounts by January 31, 2008, for all SInet users within Active Directory. This Institution-wide
policy will include guidance for OIG accounts.

Recommendation 4. Concur. OCIO will enforce policies and procedures for pushing vendor
security patches and security hot-fixes and has provided a target completion date of
February 28, 2008.

Recommendation 5. Concur. OCIO agreed that the process for scanning for vulnerabilities and
ensuring that weaknesses are mitigated needs improvement. OCIO agreed to perform, by
October 30, 2007, a SANs - top 20 – non-intrusive vulnerability scan against the identified IP
addresses. OCIO agreed to remediate identified vulnerabilities, but indicated that current staffing
levels and the decentralized nature of the Institution make it difficult to assign responsibility for
remediation.

Recommendation 6. Concur. While OCIO agreed that separation of duties is desirable, due to
lack of resources and funding they are not currently able to implement this recommendation.
OCIO will request the establishment of a security position in the Office of Information
Technology Operations to assume responsibility for SInet security by early 2008 for inclusion in
the FY 2010 budget. In lieu of not securing the funding, OCIO will consider additional
automation tools to facilitate the monitoring of security controls and activities.



                                                 13
Smithsonian Institution OIG                                 FY2006 FISMA Review - SINET

Recommendations 7 and 8. Concur. OCIO indicated that it will update IT-930-02 to include
warning banner language identified in NIST SP 800-53 and implement new banners for SInet
Active Directory and Novell logins by July 30, 2007.

Recommendations 9 and 10. Concur. OCIO will implement, by November 30, 2007, a group
policy in Active Directory requiring the activation of password-protected screensavers.

Recommendation 11. Concur. Once all SI units move to Active Directory, no later than
November 30, 2007, OCIO will improve enforcement of SI password policy as outlined in SD
931.

Recommendation 12. OHR and OCIO concur. OHR believes this recommendation to be
unnecessary since there appears to be a single employee file identified during the audit that was
missing the signed user agreement. This file was for an employee who was subject to a staff
reduction and the user agreement had likely been purged, in accordance with Office of Personnel
Management regulations. The Associate Director, OHR, conducted additional testing of 50
employees to ensure that signed user agreements were contained in the personnel folders and
without exception all folders were compliant.

Recommendations 13 and 14. Concur. Effective June 2007, OCIO has deployed an electronic
signature procedure whereby user agreements will be signed annually as part of the Computer
Security Awareness Training process. To ensure that this process is operating as intended,
covering all employees, contractors, and other users with access to SInet, OCIO proposed a target
completion date of September 30, 2008.

Recommendations 15 and 16. Non-concur. OCIO believes the risk assessment documentation
adequately reflects the intent and overall guidance of NIST SP 800-30.

Recommendation 17. Concur. By September 30, 2007, OCIO will update existing policies to
reflect management procedures for tracking down unauthorized wireless access points including
investigating devices identified through OCIO network scans.

We include the full text of management’s response in the Appendix to this report.

Office of the Inspector General Comments

Management’s planned actions for recommendations 1 through 14 and 17 are responsive to the
intent of our recommendations and we consider them resolved. For recommendation 3, we agree
with OCIO’s planned actions to centralize administration of SInet accounts for all SInet users
within OCIO. We understand that the inclusion of the OIG in this policy was not meant to suggest
that OCIO would be administering OIG accounts but merely providing guidance on
administration of forms. For reasons of independence, the OIG will administer its own accounts.

For recommendation 7, we verified that OCIO updated IT-930-02 to include warning banner
language identified in NIST SP 800-53. Therefore, we will close this recommendation. We also
held numerous discussions with OHR on recommendation 12. Based on OHR’s assurances that it
will continue to require new employees to sign user agreements during orientation and file them
in the personnel folder and OCIO’s procedure that it implemented in June 2007 to have
employees electronically sign user agreements annually when taking security awareness training,
we consider this recommendation closed as well.


                                               14
Smithsonian Institution OIG                                FY2006 FISMA Review - SINET


In evaluating management’s response to this report, we held several discussions with the IT
Security Director in an effort to clarify and resolve areas of disagreement. The only
recommendations we could not ultimately reach resolution on are recommendations 15 and 16 on
SInet’s risk assessment. While OCIO indicates that it used the sample risk assessment in
Appendix C of NIST SP 800-30, we believe that had OCIO followed the process prescribed in the
body of NIST SP 800-30, they would have identified several more significant risks. For example,
the SInet risk assessment does not consider the following:

           The Institution’s highly decentralized environment and numerous physical remote
            locations result in a variety of personnel, remote access, networking and physical
            security risks.
           Temporary network users (such as researchers or summer interns).
           The Institution is a high-profile organization making it an attractive target by
            outsiders.
           The potential for personally identifiable information (relating to federal or non-
            federal employees, donors, and members of the public) being transmitted through the
            general support system.

We, as well as Cotton & Co., continue to believe that the SInet risk assessment does not
adequately address the NIST requirements detailed earlier in this report. OCIO’s interpretation of
these missing items is inconsistent with how NIST describes each of them. For example,
NIST SP 800-30 describes threat sources as who or what exploited the vulnerability and the threat
action is the specific discussion of how the vulnerability can be exploited. In addition, the
guidance also discusses the motivation of the threat source. While OCIO has listed threats, it has
not identified threat sources, actions, or motivations.

Despite our disagreement on this issue, OCIO, our office and Cotton & Co. have committed to
meet to work on the development of a model Risk Assessment plan. We believe the development
and implementation of such a plan would benefit all Smithsonian information systems and will
satisfy the intent of the recommendations.

We appreciate the courtesy and cooperation of Smithsonian representatives during this audit.




                                               15
Smithsonian Institution OIG           FY2006 FISMA Review - SINET

Appendix – Management Response




                                 16
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       17
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       18
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       19
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       20
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       21
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       22
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       23
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       24
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       25
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       26
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       27
Smithsonian Institution OIG                  FY2006 FISMA Review - SINET

Appendix – Management Response (continued)




                                       28
